<html>
<title> - [H.A.S.C. No. 111-79]  ADDRESSING A NEW GENERATION OF THREATS FROM WEAPONS OF MASS DESTRUCTION: DEPARTMENT OF ENERGY NONPROLIFERATION PROGRAMS AND THE DEPARTMENT  OF DEFENSE COOPERATIVE THREAT REDUCTION PROGRAM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-79] 

                      ADDRESSING A NEW GENERATION 

                       OF THREATS FROM WEAPONS OF 

                      MASS DESTRUCTION: DEPARTMENT 

                       OF ENERGY NONPROLIFERATION 

                      PROGRAMS AND THE DEPARTMENT 

                         OF DEFENSE COOPERATIVE 

                        THREAT REDUCTION PROGRAM 

                               __________

                                HEARING

                               BEFORE THE

                             FULL COMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 15, 2009

                                     
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-429 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



                                     













                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
NEIL ABERCROMBIE, Hawaii             MAC THORNBERRY, Texas
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
VIC SNYDER, Arkansas                 W. TODD AKIN, Missouri
ADAM SMITH, Washington               J. RANDY FORBES, Virginia
LORETTA SANCHEZ, California          JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
DAN BOREN, Oklahoma
                    Erin C. Conaton, Staff Director
                Julie Unmacht, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant

















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, July 15, 2009, Addressing a New Generation of Threats 
  from Weapons of Mass Destruction: Department of Energy 
  Nonproliferation Programs and the Department of Defense 
  Cooperative Threat Reduction Program...........................     1

Appendix:

Wednesday, July 15, 2009.........................................    31
                              ----------                              

                        WEDNESDAY, JULY 15, 2009
      ADDRESSING A NEW GENERATION OF THREATS FROM WEAPONS OF MASS 
  DESTRUCTION: DEPARTMENT OF ENERGY NONPROLIFERATION PROGRAMS AND THE 
       DEPARTMENT OF DEFENSE COOPERATIVE THREAT REDUCTION PROGRAM
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

D'Agostino, Hon. Thomas P., Under Secretary for Nuclear Security, 
  Department of Energy, and Administrator, National Nuclear 
  Security Administration........................................     5
Nacht, Dr. Michael L., Assistant Secretary of Defense for Global 
  Strategic Affairs, Office of the Under Secretary of Defense for 
  Policy, U.S. Department of Defense.............................     7

                                APPENDIX

Prepared Statements:

    D'Agostino, Hon. Thomas P....................................    35
    Nacht, Dr. Michael L.........................................    45

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Massa....................................................    53
      ADDRESSING A NEW GENERATION OF THREATS FROM WEAPONS OF MASS 
  DESTRUCTION: DEPARTMENT OF ENERGY NONPROLIFERATION PROGRAMS AND THE 
       DEPARTMENT OF DEFENSE COOPERATIVE THREAT REDUCTION PROGRAM

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, July 15, 2009.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Let me start by officially 
welcoming our colleague, Representative Buck McKeon, from 
California for his honest-to-goodness first hearing as a 
ranking member of this committee. He got off to a great start 
during our markup. And here we are at our first hearing, so we 
would like to officially welcome him in the first of many 
hearings that we will work together.
    We welcome our witnesses, Honorable Thomas D'Agostino, 
Under Secretary for Nuclear Security with the Department of 
Energy and the Department's Administrator for National Nuclear 
Security Administration; Dr. Michael Nacht, Assistant Secretary 
of Defense for Global Strategic Affairs with the Department of 
Defense.
    And we welcome both of you for being with us. This is a 
highly important hearing, and we look forward to your 
testimony.
    The risks associated with the proliferation of weapons of 
mass destruction, particularly the risk that such weapons can 
fall into terrorists' hands, are some of the gravest threats 
facing our country. Since the end of the Cold War, the world 
has experienced a new era of proliferation. In the last eight 
years alone, North Korea has tested a nuclear weapon, expanded 
its nuclear arsenal and proliferated weapons of mass 
destruction, technology, and expertise to Iran and to Syria.
    Iran has rapidly developed capabilities that may enable it 
to build nuclear weapons.
    A far-reaching nuclear proliferation network run by Dr. 
A.Q. Khan of Pakistan was uncovered and dismantled.
    Nuclear arms rivalries have intensified in Asia and the 
Middle East.
    Changes in civil nuclear power programs have challenged the 
nonproliferation regime. The spread of biotechnology has 
increased the availability of technologies for sinister 
purposes. Dangerous chemical, nuclear, radiological and 
biological materials have remained poorly secured. At the same 
time, terrorist networks around the globe have taken a deep 
interest in obtaining and using these materials.
    The Department of Energy nonproliferation programs and the 
Department of Defense Cooperative Threat Reduction Program 
undertake critical work to address the serious weapons of mass 
destruction threats facing our country today and must be a top 
national security priority. Unfortunately during the past eight 
years these programs have suffered from a lack of effective 
policy guidance and leadership as well as programmatic and 
funding constraints. The 9/11 Commission gave the U.S. a grade 
D on average to prevent weapons of mass destruction 
proliferation and terrorism, and emphasized that Congress 
should provide the resources needed for these efforts as 
quickly as possible.
    This committee has taken a number of important steps to 
address the 9/11 Commission's concern and move weapons of mass 
destruction nonproliferation and threat programs in the right 
direction over the last two years. The committee has also urged 
a strong national commitment to reinvigorate these programs and 
ensure that they are a top national security priority going 
forward. I am pleased that the President has now made that 
commitment and has already undertaken an ambitious effort to 
ensure that the U.S. does whatever we can do to reduce the risk 
that weapons of mass destruction and related material could 
ever fall into terrorist hands. This includes an international 
effort to secure all vulnerable nuclear material around the 
world within four years, and an effort to expand U.S. 
cooperation with Russia and pursue new partnerships to lock 
down sensitive material.
    When the House passed the National Defense Authorization 
Act for Fiscal Year 2010 this committee provided the President 
with additional funding, new authorities and other tools to 
further the President's goals and objectives in this area. This 
includes a $403 million funding increase for Department of 
Energy nonproliferation programs and a $30 million funding 
increase for the Department of Defense Cooperative Threat 
Reduction Program.
    Gentlemen, we look forward to hearing about the good work 
that your departments are doing. And under the new 
administration, we hope you will address the new generation of 
weapons of mass destruction threats facing our country. We are 
especially eager to hear about opportunities that exist to get 
a jump start on the President's initiatives.
    I would like to remind our members and remind our witnesses 
that, directly following the end of this hearing, we will move 
to Rayburn 2337 for a follow-on classified briefing for members 
only.
    Before I begin, we turn to my good friend, the ranking 
member, the gentleman from California, Mr. Buck McKeon, for any 
comments that he may wish to make.
    Mr. McKeon.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman, for holding today's 
hearing on addressing a new generation of threats from weapons 
of mass destruction, with a particular focus on efforts under 
way in the Department of Energy's nonproliferation programs and 
the Department of Defense's Cooperative Threat Reduction 
Program. I would also like to welcome our witnesses, Thomas 
D'Agostino, the Undersecretary for Nuclear Security at the 
Department of Energy, and Administrator of the National Nuclear 
Security Administration; and Dr. Michael Nacht, the Assistant 
Secretary of Defense for Global Strategic Affairs.
    Gentlemen, thank you for being here this morning. We look 
forward to your testimony. As the Chairman said, since this is 
my first full committee hearing as ranking member, I wanted to 
take a brief moment and express my sincere enthusiasm and 
commitment to work with Chairman Skelton and our members on 
both sides of the aisle to ensure that America's men and women 
in uniform have the direction, tools and resources they need to 
succeed and that our defense policies meet the evolving 
security demands facing our nation.
    Today we are focused on the next generation of weapons of 
mass destruction (WMD) threats. I think it is fair to say that 
many would agree that we live in a complex security environment 
that includes nuclear-capable states, nations determined to be 
nuclear powers, and terrorists who seek nuclear materials and 
know-how. If we look to the latest headlines in the news, we 
will find a defiant North Korea which ignores the international 
community with its nuclear tests, multiple ballistic missile 
launches and proliferation of WMD technology and expertise; a 
calculating Iranian regime that is determined to develop its 
capabilities to build nuclear weapons; and Al Qaeda and their 
affiliates who seek to undermine the Pakistani government, a 
nation with a nuclear weapons program.
    It is how we approach this WMD threat where we may have 
some disagreements. From my perspective, we need a balanced and 
effective toolkit filled with unilateral and multilateral tools 
of nonproliferation, counterproliferation, and military 
preparedness, including missile defense and emergency response.
    Today we are focused on one set of tools at our disposal--
defense nonproliferation programs managed by the Department of 
Energy and the Cooperative Threat Reduction Program managed by 
the Department of Defense.
    Gentlemen, I look forward to hearing your individual 
assessments of the major proliferation challenges facing the 
United States and the international community and how your 
respective organizations prioritize to meet these challenges.
    I am also interested in learning your thoughts on U.S.-
Russia nonproliferation cooperation. As you know, earlier this 
month President Obama met with Russian President Dmitry 
Medvedev, and in a joint statement, both nations confirmed 
their commitment to strengthen cooperation to prevent the 
proliferation of nuclear weapons and stop acts of terrorism. 
Based on this renewed commitment, what will be the impact, if 
anything, on your existing programs with Russia and in terms of 
cost-sharing?
    At this time, I would also like to raise two concerns. 
First, while I recognize that addressing the WMD proliferation 
threat is in U.S. national security interests, our success 
depends on our partnerships with Russia and other nations. I am 
concerned that the United States often gets stuck paying the 
bills, especially for those nations who have the financial 
means to contribute. Let me emphasize that a partnership is not 
a one-way street; it is not an assistance program, and it is 
not effortless.
    Please describe how you are working with other nations to 
ensure they take the proliferation threat seriously and how 
they are contributing, both in terms of capital and financial--
political and financial capital, to address our shared 
proliferation interests.
    Second, in the recently passed National Defense 
Authorization Act, both the National Nuclear Security 
Administration (NNSA) and the Department of Defense (DOD) 
received funding above the President's budget request for their 
nonproliferation programs. While I support the bill that we 
passed, I am concerned that the additional $402.6 million 
provided to the NNSA came without a formal request from the 
Administrator or Secretary of Energy and was based on a vague 
commitment made during President Obama's April 5th speech in 
Prague where he outlined his vision, ``to secure all vulnerable 
nuclear material around the world within the next four years.'' 
My concern is that we are funding programs before the 
President's rhetoric has translated into an integrated 
interagency strategy or plan that has been shared with 
Congress.
    As further evidence of my concerns, neither our colleagues 
on the Senate Armed Services Committee nor the House 
appropriators provided additional funding for NNSA's defense 
nonproliferation programs. In addition, both of these 
committees also reduced funding for an NNSA program to disable 
and dismantle North Korea's nuclear program next year. North 
Korea's rejection of the Six-Party talks and recent provocative 
actions are strong indicators that the international community 
will be in a stalemate with North Korea for the foreseeable 
future.
    Considering these circumstances, Republicans would rather 
see this funding and additional increases designated by the 
committee for these programs be shifted to other priorities, 
such as missile defense, given the current threat.
    Before closing, I want to reiterate that our 
nonproliferation programs are essential to U.S. national 
security interests, especially our efforts to keep nuclear 
materials out of the hands of terrorists.
    Gentlemen, I look forward to your testimony and a candid 
discussion that follows and thank you for being here.
    I yield back.
    The Chairman. Thank the gentleman.
    Our old friend, the Honorable Tom D'Agostino, we will call 
on you first, sir.

STATEMENT OF THE HON. THOMAS P. D'AGOSTINO, UNDER SECRETARY FOR 
  NUCLEAR SECURITY, DEPARTMENT OF ENERGY, AND ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Secretary D'Agostino. Thank you, Mr. Chairman.
    Chairman Skelton, Ranking Member McKeon, members of the 
committee, I appreciate the opportunity to appear before you 
today to discuss NNSA's vital role in supporting the 
administration's efforts to address weapons of mass destruction 
threats.
    Mr. Chairman, under your leadership the committee has been 
a strong supporter of NNSA's nonproliferation activities.
    The Chairman. Excuse me, would you move the microphone just 
a little closer? We are going to have this room renovated, and 
it is going to be a lot easier for witnesses as well as the 
committee to hear witnesses some six months from now.
    But, right now, we will have to do with what we have. So 
please proceed. Thank you.
    Secretary D'Agostino. Yes, Mr. Chairman.
    The committee's assistance will become even more critical 
as the NNSA seeks to expand and accelerate efforts, consistent 
with the President's nuclear security strategy. The 
nonproliferation activities that I will address today are a 
subset Department of Energy's overall capabilities to address 
the weapons of mass destruction threat. These activities 
complement the Department's other recognized nonproliferation, 
arms control and counterterrorism capabilities. However, my 
remarks today focus on our first and second line of defense 
activities to prevent the spread of weapons of mass 
destruction, of materials and of technology.
    The President made clear in his April speech in Prague in 
joint statements with our Russian partners and elsewhere that 
nuclear weapons remain a fundamental issue facing the 
international community in the 21st century. He has stated that 
the most immediate and extreme threat to global security is the 
potential acquisition of nuclear weapons by terrorists. To 
address this threat, the President has outlined an ambitious 
strategy: deal with the nuclear arsenals, halt the 
proliferation of weapons to additional states, and prevent 
terrorists from acquiring weapons or the materials to build 
them.
    I have had the opportunity to speak to members of this 
committee on the important work that the NNSA has done and the 
enterprise carries out to ensure that the United States' 
nuclear weapon stockpile remains safe, secure and reliable to 
deter any adversary and to provide the appropriate defensive 
umbrella to our allies.
    While I am speaking today about a major separate component 
of the NNSA, the nonproliferation component of our national 
security mission relies upon similar scientific and technical 
expertise. It is that scientific and technical nuclear 
expertise, combined with our proven track record on 
implementing programs both domestically and abroad, that makes 
the NNSA defense nonproliferation program a leader in 
nonproliferation activities around the world.
    The NNSA nuclear security programs provide an important 
means to achieve a number of President Obama's objectives. His 
April Prague speech provides a priority list of areas in which 
NNSA will focus future nuclear security activities. Chief among 
those is the President's call to secure all vulnerable nuclear 
materials around the world in four years, expand our 
cooperation with Russia, and pursue new partnerships to lock 
down these sensitive materials.
    This is an urgent and ambitious goal. However, it is one 
that we stand prepared to support. Our work scope includes a 
priority-based assessment of activities required to address 
security concerns at specific sites worldwide. NNSA will 
undertake the following actions to expand nuclear security 
cooperation with Russia and other key partners; secure nuclear 
material at the most vulnerable sites worldwide; remove and 
eliminate weapons-useable nuclear materials where possible; 
strengthen international security standards, practices and 
international safeguards; improve international capabilities to 
detect and intercept smuggling of nuclear materials; and to 
prevent terrorists and proliferators from poaching on the 
international market in the dual use of nuclear-weapons-related 
equipment and technologies.
    To start addressing the four-year time line to secure 
vulnerable material, some existing NNSA activities will be 
accelerated, including our Material Protection Control and 
Accounting Program, our Global Threat Reduction Initiative and 
our Nonproliferation and International Security programs. Other 
aspects of the present agenda will require new or expanded 
efforts, but in short, we have our to-do lists.
    This NNSA plan of work alone will not accomplish all of the 
President's nuclear security objectives. Under the leadership 
of the White House, we will work closely with the Department of 
State, Department of Defense, Homeland Security and others in 
achieving these goals. The joint statement on nuclear 
cooperation issued by Presidents Obama and Medvedev in Russia 
just last week, as well as the March 2010 Global Nuclear 
Security Summit, announced at the G8 summit in L'Aquila, Italy, 
likewise will provide a solid foundation for work with our 
international partners.
    In closing, as the Administrator of the NNSA I am very 
proud of the work and accomplishments of the nonproliferation 
program that we have. For the sake of not taking up too much of 
the committee's time today, I have not covered our other 
numerous activities and accomplishments in my oral statement. 
However, I have included the details of our nonproliferation 
programs and the achievements in the written testimony. You 
have my assurance that, as we continue on our important work to 
achieve the President's nonproliferation goals, while closely 
working with our interagency partners, NNSA will do its best to 
make the world a safer place. Mr. Chairman and members of the 
committee thank you very much, and that concludes my remarks.
    [The prepared statement of Secretary D'Agostino can be 
found in the Appendix on page 35.]
    The Chairman. Without objection, the written testimony of 
the witnesses will be included in the record.
    Dr. Nacht, please. We welcome you.

   STATEMENT OF DR. MICHAEL L. NACHT, ASSISTANT SECRETARY OF 
   DEFENSE FOR GLOBAL STRATEGIC AFFAIRS, OFFICE OF THE UNDER 
  SECRETARY OF DEFENSE FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Dr. Nacht. Thank you, Mr. Chairman. And I, too, have 
submitted written testimony for the record.
    Mr. Chairman and members of the Armed Services Committee, I 
am very pleased to appear before you today to discuss these 
terrible threats posed by weapons of mass destruction and 
explain how the Department of Defense Cooperative Threat 
Reduction Program plays an important role in the overall U.S. 
strategy to mitigate these threats.
    We all know that weapons of mass destruction pose a 
tremendous threat to our nation, our interests and even our way 
of life, and the Department of Defense is seized with this 
challenge, and we are determined to ensure that we develop and 
maintain the plans, strategies, capabilities and programs 
necessary to prevent WMD proliferation wherever possible.
    The Under Secretary of Defense for Policy has identified 
four strategic priorities that provide our Department with the 
mechanism for examining WMD challenges. These four priorities 
are: Increasing barriers to WMD proliferation and use; 
identifying and mitigating emerging WMD threats; developing an 
integrated, layered WMD defense; and managing WMD threats 
emanating from failing or fragile states or from ungoverned 
spaces.
    These priorities provide a valuable framework to support 
the President's ambitious nuclear security agenda from his 
Prague speech. Within DOD, these priorities are shaping our 
efforts to address WMD related issues in the Quadrennial 
Defense Review, the QDR, which is currently under way. The QDR 
provides an unparalleled opportunity to communicate the 
importance of WMD issues to the broader defense community.
    Let me briefly offer the committee a report on our current 
and future Cooperative Threat Reduction (CTR) activities. And 
before I begin, I do want to thank the committee for its 
continued strong support for the Cooperative Threat Reduction 
Program and the National Defense Authorization Act for Fiscal 
Year 2010, and we take this as a vote of confidence in the 
Department's efforts thus far to implement the CTR Program.
    Mr. Chairman I know you and your colleagues are well 
acquainted with the history and activities of the Program. I 
just want to bring you up to date briefly on the status of some 
current projects, some recent achievements, and then some new 
initiatives.
    CTR today is in a period of transition from a nuclear-
centric effort focused on the former Soviet Union to a more 
expansive effort to respond to WMD threats throughout the 
world. CTR continues to oversee the destruction of strategic 
weapons delivery systems and associated infrastructure in 
accordance with all relevant stock provisions and agreements. 
Security systems at 24 nuclear weapon storage sites in Russia 
have been upgraded in partnership with the Department of 
Energy, with the final upgrades completed in late 2008 last 
year. DOD and the Department of Energy (DOE) are now 
coordinating closely to give the Russian military the means to 
sustain operational readiness into the future.
    On March 5th of this year, the first chemical munitions 
were destroyed in the Shchuch'ye chemical weapons destruction 
facility. By 2012, the facility will destroy the chemical 
weapon stockpile at the nearby Planovy military base, which 
contains approximately one-seventh of Russia's chemical 
arsenal. In Azerbaijan, CTR is helping the Coast Guard 
interdict WMD smuggling in the Caspian Sea, and we are 
installing a comprehensive surveillance system that will cover 
the major shipping lanes in the Caspian.
    And by the way, Congressman McKeon, I can cite some 
specific cost-sharing examples here perhaps after I finish my 
testimony. The Biological Threat Reduction Program, the BTRP, 
continues its work to consolidate and secure pathogen 
collections, develop a capability for disease detection, 
diagnostics and reporting and enhancing strategic research 
partnerships.
    We have negotiated an implementing agreement with Armenia 
which is pending signature. There is construction of the 
Central Reference Laboratory in Tbilisi, Georgia, which is on 
track to be completed this year. And at the request of the 
Georgian government, CTR was working to make the lab a joint 
disease surveillance and research center. These are ongoing 
activities today.
    What about the future? First, we must continue to have a 
strong CTR presence in Russia, as the President attempts to 
reset our relationship with Russia, where the CTR Program 
should be a central part of that resetting process. CTR is 
working with an interagency forum to meet the President's goal 
of nuclear lockdown within four years, as Administrator 
D'Agostino has already discussed.
    This group is currently assessing known locations of 
nuclear material to determine the best way forward. This 
initiative is a high priority for the President, and CTR looks 
forward to assisting in this effort. In addition, the CTR 
Program is bracing for a wide range of emerging WMD threats 
beyond the former Soviet Union.
    A recent National Academy of Sciences study recommended 
that CTR expand geographically and evolve in form and function 
to confront emerging WMD threats. In conjunction with an 
interagency committee on bioengagement, CTR has identified four 
countries, Pakistan, Afghanistan, Kenya and Uganda, as 
potential partners in future bioengagement efforts.
    A National Research Council report on the Biological Threat 
Reduction Program noted that countries that lack the 
infrastructure necessary to detect, diagnose, and protect 
disease outbreaks are at a greater risk of succumbing to a 
bioterror attack. Dual-use technologies, materials and 
expertise flow freely across international borders. Dangerous 
pathogens exist in nature and can be weaponized without special 
equipment or advanced technical skills.
    So the increasing threat of animal-to-human transfer of 
pathogens underscores the importance of reporting on animal 
disease outbreaks as well as human. To meet this threat, the 
Biological Threat Reduction Program has built facilities, such 
as the Joint U.S.-Georgia Disease Surveillance and Research 
Center, that will have the unique capability of conducting 
research in both human and animal especially dangerous 
pathogens.
    BTRP will continue to grow and evolve as CTR shifts from a 
nuclear focus to a more expansive vision for threat-reduction 
efforts.
    Let me conclude my remarks by endorsing the new legal 
authorities this committee has included in the National Defense 
Authorization Act (NDAA). I wish to emphasize to the committee 
that DOD understands the sensitivities associated with the use 
of these authorities, and we will only utilize them within the 
guidelines set forth in the legislation.
    So, in conclusion, Mr. Chairman, I would say CTR is one 
piece of an overarching national strategy to counter WMD. We 
have made significant progress over the history of the Program, 
but we have more to do across the growing spectrum of WMD 
threats. The Department of Defense looks forward to continued 
close coordination with Congress and its interagency partners 
as we seek to address the threats posed by WMD. And I welcome 
your questions and look forward to a productive discussion. 
Again, thank you for giving me this opportunity.
    [The prepared statement of Dr. Nacht can be found in the 
Appendix on page 45.]
    The Chairman. Doctor, thank you very much.
    Let me ask each of you, in your considered opinion, what is 
the greatest existing or emerging threat posed by the 
proliferation of weapons of mass destruction?
    Go ahead, please.
    Secretary D'Agostino. Why don't I start, Mr. Chairman?
    In my view, obviously, it is a complicated question. I 
don't want to point to a particular region in the world, but I 
would like to answer it in the following way. This is all about 
the material. Preventing terrorists, nonstate actors, rogue 
states from having the kind of material that can prove to be 
dangerous; fissile material and, in some cases, certain types 
of radiological material, can cause also panic, if you will, 
but may not have that destructive power that fissile material 
may have.
    Our priorities are to look at both areas, but it is all 
about the material. So we have a program working with the 
Defense Department that integrates the whole material spectrum 
problem. Looking to secure material where it exists around the 
world is a key part of it, and reducing the number of locations 
of the material, eliminating material, trying to get rid of 
that fissile material that has no energy value, if you will, 
and converting material from highly-enriched uranium to low-
enriched uranium; detecting material as it moves around the 
world, having a specific program to focus on material 
detection; and then ultimately stop adding to the material 
problem with programs and ideas, such as the Fissile Material 
Cutoff Treaty and reopening it to discussion internationally to 
get those pieces together.
    So the threats come down to the material. It is kind of 
like that old real estate add, which is location, location, 
location. I think it is material, material, material. Obviously 
technology and policies are a big part of that. But that is how 
I like to think about this problem sir.
    The Chairman. Thank you.
    Dr. Nacht.
    Dr. Nacht. Of course, President Obama to some degree 
answered that question in Prague when he said the most 
immediate and extreme threat to global security is a nuclear 
weapon in the hands of terrorists. Within the Department of 
Defense, we are very much emphasizing that it is most 
expeditious to stop the proliferation of WMD at its source, 
because once it gets out into a transportation network, it is 
much harder to interdict.
    Let me give you several examples of how we are trying to do 
this. In cooperation with the Department of Energy, we, last 
year, finished physical protection upgrades at every Russian 
nuclear weapon storage site for which U.S. assistance has been 
requested to enhance the security of those sites and make it 
less feasible for material to be stolen.
    Currently, the two departments continue to work closely 
with the Russian ministry of defense to develop a cadre of 
military personnel capable of operating, maintaining and 
repairing those security systems far into the future. In an 
effort to address the insider threat, which is really central 
to stopping the flow of material from the source, we work 
closely with the Russian--the three agencies. The Ministry of 
Defense (MOD) in Russia and DOD and DOE are involved in further 
developing MOD personnel reliability programs intended to 
ensure that personnel with access to nuclear weapons are fit 
for duty.
    The DOD and MOD together have developed and installed an 
automated system to inventory and to track the location and 
condition of Russia's nuclear weapons. We also continue to 
support the transport of nuclear warheads from operational 
locations to dismantlement facilities and to consolidate its 
secure storage. So we remain engaged with the Russian 
Federation on multiple fronts, including eliminating strategic 
nuclear arms and their delivery vehicles.
    Of course, nuclear weapons are not the only form of WMD 
that pose such a threat, even in the hands of terrorists. So as 
I mentioned in the past already, the first processing building 
at Shchuch'ye Chemical Weapons Destruction Facility began to 
destroy agents in March of this year. A second processing 
building will be completed by the end of this year. So 
interdicting and stopping the proliferation of the weapons at 
its source is our primary approach to this problem.
    The Chairman. Thank the gentleman.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    Gentlemen, in following up on my opening remarks, there has 
been a great deal of attention focused on the President's goal 
of securing all vulnerable nuclear material worldwide in four 
years. Again, it is my understanding that, at this time, 
neither the Department of Energy nor the Department of Defense 
nor this Congress has seen a formal strategy, plan or timeline 
to meet this goal. Would you please tell us when should the 
Congress expect to receive such a formal strategy or plan?
    Secretary D'Agostino. I will start, sir, and then shift 
over. What we have done at the Department of Energy, and we are 
very familiar with the Cooperative Threat Reduction Program and 
work closely with Dr. Nacht and his team, is we looked at our 
program, which is structured as I mentioned earlier around 
securing material, addressing that and being able to detect 
movement of items across the world, frankly; and looked at 
accelerating those elements of our program, trying to push the 
end dates, some of which are out in the 2016 to 2018 time 
frame, and moving them closer within the next four-year period.
    So the scope of work that we have laid out we don't have an 
approved plan. My team, headed by Mr. Baker, has put together a 
draft plan. I have asked him to put together a draft plan, but 
that draft plan is not approved yet by me. It is, frankly, we 
are negotiating both internally within the Department and in 
the interagency process.
    However, in the meantime, I don't need to have a final 
approved plan to know what work I have in front of me because I 
have a good sense of it. And so we are looking at recalibrating 
the internals of our program to address what we think are the 
most vulnerable and most important areas to address first.
    And then the interagency process, as you have described in 
your opening remarks, are exactly where ultimately I would like 
to see this go. This is not just about the NNSA or this is not 
just about the Department of Defense and the NNSA solving, 
addressing this problem. This is about the whole federal 
government and, quite frankly, all of our international 
partners who are part of this solution. It will take a little 
bit of time to get to the point, and unfortunately, I can't 
give you a date, but it will take a bit of time to sort out all 
those pieces. But in the meantime, I think Dr. Nacht and I know 
about our work that we have cut out in front of us, and we want 
to accelerate those pieces that we can, particularly with our 
Global Threat Reduction Initiative in the National Nuclear 
Security Administration, as well as with our Material 
Protection and Accounting Program that we have. Those two 
pieces coupled with the right policy and safeguards framework 
will ultimately get us a lot closer to where we need to be four 
years from now.
    Dr. Nacht. Let me follow on with some remarks from the 
Defense Department's perspective. As Dr. D'Agostino has said, 
the staffs of several of the agencies involved in this work are 
collaborating and developing an overall strategy, which is in 
progress. There are several parts to this process that I can 
cite. First, we are defining and scoping the problem in terms 
of the definitions and thresholds for vulnerable materials. 
What is it we really are looking for? What is included in our 
effort to lockdown? And what is excluded? We are refining and 
prioritizing the list of key facilities and sources of 
vulnerable materials worldwide.
    We are defining where the problem is best addressed, to 
expanding and accelerating existing programs, and where new 
activities and programs will be required, to include an 
evaluation of roles and missions of the major departments in 
the federal government. And I believe that we could be able to 
return to you in September and provide a more detailed report 
on the proposed way forward.
    Mr. McKeon. So you are expecting by September to give us 
the plan?
    Dr. Nacht. I am optimistic that we will have something to 
report to you in September. The NNSA, of course, is overseeing 
this. They are taking the lead on it in terms of coordination, 
and we are all on the job on this. We know how critically 
important it is. It is not only something that has been 
restated by President Obama; it was now endorsed at the G8 
summit in L'Aquila, so it is becoming a global initiative. So 
we know it is a very high priority.
    Mr. McKeon. Will the four years start when the President 
gave his speech or in September when you give us an update or a 
draft of a plan?
    And Mr. D'Agostino, you said it would take some time. Would 
you be able to report back in September?
    Secretary D'Agostino. I think what we would be able to--we 
have an element of our plan, we have our work scope identified, 
and the key will be making sure that our priorities are not 
just within the Department of Energy, but are consistent with 
the rest of the federal government, quite frankly, and having 
those things line up and mesh up nicely.
    I believe we will have a plan that I am comfortable with. 
As you obviously know, sir, we are in the process of defining 
our fiscal year 2011 and outyear program in details. I have a 
personal desire, and I know Dr. Nacht does as well, to make 
sure that things get settled as quickly as possible on this 
plan because it helps inform the kind of program I will 
ultimately submit to the White House and negotiate to get into 
the President's budget next January.
    So I think I will have enough information from a draft 
standpoint. I don't know if it will be ready for Congress yet, 
but quite frankly, I am pushing very hard, and I know Dr. Nacht 
is pushing very hard, to get this thing done. We understand 
that this is a focal point, and we understand that this is the 
thing that is going to help us shape the details of our 
program. And whether more money needs to be put in category A 
versus category B and where the priorities are, we are right on 
top of that because it is important to get this done.
    Mr. McKeon. Is the President asking both of you to--is this 
just something that sounded like a good thing to do, or is he 
really serious and he wants this done in four years from the 
time he gave the speech, and you are working on it and you will 
have the plan back September or January? I think the Congress 
is very interested in seeing that and then monitoring it 
because I think we all agree that that is something that should 
be done, and four years is a good time to have it done. So is 
this something that he is pushing you on, that he wants this 
plan and the date started from when he gave the speech?
    Secretary D'Agostino. The President is quite serious about 
this plan, sir. I haven't talked to him personally about it, 
but I have talked--my contacts at the National Security Council 
are very clear that we are going to put together a plan, we are 
going to work the details of it. I don't know when, quote-
unquote, the official start date might be. My view is the 
President said he wants the plan done within four years. I know 
the date he said. I think it is April 4th. And I am working to 
that end.
    Mr. McKeon. Thank you very much.
    The Chairman. I think we are running out of time. We will 
run and vote in just a minute. But I have one request following 
up on Mr. McKeon. You will, the minute the plan is fully ready, 
communicate it to this committee, am I correct?
    Dr. Nacht. Yes, of course. As soon as the plan is fully 
ready, we will communicate this to the committee. And there may 
be ways we can brief you off line or in closed session on the 
progress.
    The Chairman. Of course, the sooner the better. A briefing 
would be excellent. But we would like to have the full plan. I 
am sure we would consider a full hearing on that issue the 
minute that it is given to us. We will return after the vote, 
and Ms. Sanchez will be the lead questioner. We will be 
adjourned until we come back.
    [Recess.]
    The Chairman. The hearing will resume. The gentlelady from 
California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being before us today.
    I have sat on this subcommittee that deals with these 
issues now for I think 11 of the 13 years that I have been in 
the Congress. And there are really two issues that worry me 
today, and I continue to try to understand and get my hands 
around it. So I will start with the first.
    The START treaty will expire December 5th of this year. And 
I know that your agency is the one that deals with giving the 
technical information about numbers and capabilities and 
delivery systems, et cetera. So my question is--it is my 
personal opinion that it is very difficult to reach a 
renegotiation and then extension treaty by December 5th. So my 
question to you would be, what is it that we as Congress can do 
to ensure that we meet this December 5th, that we get something 
that we meet this December 5th deadline, because I think it is 
very, very critical? It exposes us to a new arms race, if you 
will, if we don't do something about this.
    Dr. Nacht. Well, Congresswoman, obviously, you are aware 
that there have been very intensive negotiations.
    Ms. Sanchez. I have been to Russia several times.
    Dr. Nacht. Right. And Rose Gottemoeller from the State 
Department chairs our negotiating team. They are actually 
leaving again next week for the first round of negotiations 
post-summit. I think the calendar is daunting, as you suggest. 
We are making every effort, and the Russians have been told 
this, and they are fully aware of this, that we don't want to 
go through a process of extending the treaty.
    We want a new treaty that will be completed by the time the 
START treaty expires. Now, then, we think probably it is 
unlikely that the treaty will be completed and the ratification 
process will be completed by the time the treaty expires, the 
START treaty. So we would seek an extension from the Congress 
to continue the treaty while the ratification process goes 
forward. But we are hopeful, very hopeful, that a treaty will 
be reached, an agreement will be reached on a new treaty before 
December 5th. We will submit it to the Senate and to relevant 
House committees as well, but for consent for ratification, 
which will then take place. Senator Lugar has stated publicly 
it might take four months. So sometime before the spring of 
2010, we would hope to have a new agreement.
    Now, the summit, as you know from the joint understanding, 
did reflect a lot of hard bargaining that has already taken 
place. We have an agreed range of operationally deployed 
strategic nuclear weapons of 1,500 to 1,675. We have an agreed 
range of strategic nuclear delivery vehicles 500 to 1,100. Each 
side has argued for one side or the other. At least we have now 
bounded the problem, and I think we can see our way through to 
an agreement on both those characteristics of the forces which 
are critically important.
    There are other elements of the treaty as well and 
definitional issues that have to be resolved, so there is a lot 
of hard negotiating ahead. But I think our readout of the 
summit was that the Russians, although they are challenging to 
work with, want an agreement. Actually, their nuclear delivery 
vehicle programs are lagging ours by quite a lot numerically. 
Just the atrophying of their systems; they are putting more 
weapons on fuel delivery vehicles, which actually is quite 
destabilizing. We would prefer to have single-warhead weapons 
on delivery vehicles so it is not seen as a first-strike 
weapon. So this suggests to me--I mean, there are other issues. 
There is a missile defense issue in Europe.
    Ms. Sanchez. Yes, I know about that also.
    Dr. Nacht. So I don't want to in any way sugarcoat it. It 
is not going to be simple. But I think this is an important 
next step.
    We had the London meeting between President Medvedev and 
the President in April. We had the Moscow summit last week. I 
think it is promising--I spent a lot of time negotiating it 
with the Russians in the past, in the 1990s--that we will have 
a treaty before the START treaty expires.
    Ms. Sanchez. Let me stop you right there because I have a 
second question. I am very concerned--my number one priority 
has always been the concern over Iran getting nuclear weapons. 
What do you think the Congress can do? I think it is not just 
an ability for them to get the ability to send missiles off, 
but their ability to put it in the hands of somebody who might 
walk it into our country or into another ally's country. What 
should the Congress be doing?
    The Chairman. Doctor, answer the question, please, and then 
we will go to the next witness.
    Dr. Nacht. Well, this is a large subject. Obviously 
stopping Iran from acquiring nuclear weapons or transmitting 
them to others is obviously a top national security priority 
for the President. We have had this recent--now where Iran is 
going through sort of our people domestically.
    One of our issues is, we are seeking to impose an effective 
sanctions regime on Iran, so that they will find it in their 
interest to come to the table. But it is not easy to do. 
Germany alone exports $6 billion worth of goods and equipment 
to Iran. A lot of our European allies are deep negotiating 
commercial partners with Iran.
    Ms. Sanchez. We have been working with them through the 
dialogues that we have in the Congress.
    Dr. Nacht. The Chinese buy a lot of oil from Iran. So 
whether you are looking for a U.N. Security Council resolution, 
if you are looking for a multi-party sanctions regime, we are 
talking to the people who are selling the Iranians a lot of 
high-priced systems. So anything the Congress can do, frankly, 
to shore up our ability to enforce a sanctions regime we think 
would be very valuable.
    Ms. Sanchez. Thank you.
    The Chairman. I thank the gentlelady.
    Mr. Bartlett--but before I call Mr. Bartlett, let me again 
reiterate, gentlemen, we would appreciate continued briefings 
on the progress on the four-year plan. And when it is 
finalized, at the earliest moment, please, communicate it to 
this committee because we wish to follow through at that time.
    Mr. Bartlett.
    Mr. Bartlett. Thank you.
    Several years ago, I spent three days in North Korea. They 
may be evil; they are not stupid. They know, and I suspect the 
same is true of Iran, they know that if they launched a missile 
from their soil, nuclear tipped, that the consequences of that 
would be that we would vaporize their country.
    Gentlemen, they are just not going to do that. I have no 
idea why we are watching to see when they get a missile which 
could reach us from their soil. They are not going to launch a 
missile from their soil toward us. If they launch a missile 
toward us, it will be from the sea. And if it is nuclear-
tipped, the most probable use of that weapon is going to be to 
produce an extra atmospheric electromagnetic pulse (EMP) lay 
down. Their weapon and their missile is unlikely to have much 
precision. If they miss their target by 100 miles for extra 
atmospheric detonation, it really won't matter, will it? The 
most probable place the weapon is going to be launched from is 
the sea. And the most probable use of the weapon is going to be 
an EMP attack. Why am I not seeing any meaningful preparation 
to protect us against either one of these?
    Dr. Nacht. Well, let me just take a piece of what you have 
said. When the North Koreans started testing these missiles, 
most recently after they tested a nuclear device, Secretary 
Gates ordered redeployment of missile defense systems, the 
Terminal High Altitude Area Defense (THAAD) system and an Aegis 
system, to protect the Hawaiian islands. We are working on----
    Mr. Bartlett. Sir, if I might interrupt. That is because we 
thought they were going to launch from their soil, and the 
current missile would only reach Hawaii; it wouldn't reach our 
mainland. I am saying, sir, that they are not going to launch 
from their soil. They may be evil; they are not stupid. They 
are not going to launch from their soil. They are going to 
launch from the sea, which means that all up and down both of 
our coasts, we are vulnerable. Why am I not seeing any 
meaningful preparation to protect us against that? And if they 
do launch there, sir, the most probable use of that weapon--it 
is in all of their open literature and all of their war games--
and if a nonstate actor had it, that it is absolutely what they 
are going to do, it is going to be an extra atmospheric 
detonation-producing EMP. I am not seeing any meaningful 
preparation to prepare for that attack either. Why am I not 
seeing any preparation for either of these two, which is the 
most probable way the missile is going to be used and the most 
probable way the nuclear weapon is going to be detonated?
    Dr. Nacht. With respect to possible EMP attacks on the 
United States, there is work being done which we could discuss 
in another venue. With respect to a sea-based system, there are 
no current platforms or delivery vehicles available to the 
North Koreans to launch an attack on the U.S. homeland from 
sea.
    Mr. Bartlett. Sir, that just isn't true because any tramp 
steamer and a Scud launcher, which they can buy for $100,000, 
can launch a missile to an apogee of 180 miles. That is 
perfectly adequate, sir, for an EMP attack which would 
devastate all of New England. They do have platforms. Any tramp 
steamer and a Scud launcher is an adequate platform.
    Dr. Nacht. Congressman, of course, you are aware, take the 
recent following of the Korean ship from the North Korean port 
toward Burma that turned around just recently; we have 
excellent surveillance of all North Korean naval vessels.
    Mr. Bartlett. Sir, there are thousands of commercial ships 
out there. And if a canvas is over it, you cannot tell whether 
it is a stack of bananas or a missile launcher on the deck. We 
can't see through the thinnest covering on the deck. There is 
no way, in today's world, that we could detect whether that 
cargo on the deck is a launcher or Caterpillar tractors.
    Dr. Nacht. I think, Congressman, you raise some good 
points, and I think we can continue this perhaps with members 
from the Defense Intelligence Agency and others in a closed 
session and I'd be happy to go into more detail on exactly your 
concerns.
    Mr. Bartlett. Thank you, sir.
    The Chairman. I thank the gentleman.
    Mr. Marshall, please.
    Mr. Marshall. Thank you, Mr. Chairman.
    I second, third and fourth what my colleague Mr. Bartlett 
had to say. This is so obvious. One of the reasons why I agreed 
to co-chair the Missile Defense Caucus; we are not adequately 
prepared to deal with rogue missiles. And a rogue missile 
launched the way Mr. Bartlett described would just be 
absolutely devastating to the United States, would 
significantly weaken the United States. It would, obviously, be 
in the interest of all of our adversaries to do that. And the 
possible consequences, the human consequences, within the 
United States are just too horrible to even contemplate. And so 
I look forward to closed session discussions of this problem 
and what we are doing about this problem.
    CTR and the evolution of CTR, Mr. Nacht, if you had 
additional funds available to you, what would you be doing with 
those funds? How would you modify the Program, improve the 
Program, expand the Program, those sorts of things? I 
understand we have moved significantly away--well, not away 
from--but we have broadened the scope of our inquiry beyond 
nuclear to bioterrorism, chemical, et cetera. And if you could 
describe what you would do with additional resources, that 
would be helpful.
    Dr. Nacht. Well, you raised one point immediately. We are 
moving substantially into the bioterrorism threat space, and we 
are still at the early stages. It is not easy to collaborate 
with other countries on this, although we have made some 
progress. A lot of the systems we are talking about are dual-
use systems. They can be used for perfectly legitimate 
commercial research activities. We could really scope out a 
broader effort to try to develop something that might begin to 
move down the road toward a lockdown of pathogens even though 
it would be even more ambitious than the nuclear lockdown.
    Mr. Marshall. When you say it is not easy to coordinate 
with other countries on this particular subject, is it because 
of lack of resources or there is just lack of interest on their 
part to cooperate with us?
    Dr. Nacht. I would say it is a mix. You know, if we speak 
to some governments, they find that we are being excessively 
intrusive on what they are doing in certain areas, or they deny 
that there is any malevolent intent or any military 
application. Sometimes we can't prove that. We don't have the 
intelligence to know definitively.
    So we need collaboration that sometimes comes actually from 
a broader framework. Take for example the case of Georgia. 
Georgia was invaded by Russia last summer. Georgia has all 
kinds of security concerns. We have signed an agreement that 
basically pledges to maintain their security. They are very 
keen on collaborating with us, even though it is a very 
sensitive matter dealing with their Russian neighbors on all of 
this. So there we have a substantial new program for a 
biological laboratory in Georgia.
    But other countries don't have that sense of security needs 
or concerns. They don't think they are a transit point for 
bioterrorism, and they are just more reticent. Now, sometimes 
funds can help. If we say, we will put a downpayment down on 
this activity or we will pay the majority share in the first 
tranche, they might be more interested. So I think additional 
funds could help. But we have been very careful not to go to 
the committee or the Congress for request of funds that we know 
we can't use effectively.
    And, you know, you have been generous enough to support 
beyond our request. So, you know, we have not submitted--we 
don't have a list, really, of unfunded priorities that we have 
in our pocket that we could go to. It is unusual, unlike a lot 
of other areas. But if you are urging us to do it, we could 
develop it.
    Mr. Marshall. That would be great, if you would develop it. 
We may not fund it, but it would be nice to know what 
additional steps--where would you go from where you are right 
now.
    Dr. Nacht. Sir, we will follow up on that with NNSA.
    Mr. Marshall. Thank you, Mr. Chairman.
    The Chairman. Mr. Thornberry, please.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. D'Agostino, I appreciate what you and your colleagues 
at NNSA have done over the years on nonproliferation. I have 
thought that if the federal government were going to waste 
money in one area that that would probably be the area to waste 
it in, because any chance of reducing slightly the odds of a 
terrorist getting a weapon of mass destruction would be worth a 
lot. But, at the same time, we want to make sure our money is 
spent smartly and effectively.
    Secretary D'Agostino. Right. Right.
    Mr. Thornberry. And I have some concerns that a lot of this 
is moving so quickly that we have the risk of throwing money at 
problems and not spending it as smartly and as effectively as 
we might--could.
    For example, it seems to me that the clearest, easiest 
program to defend is Material Protection, Control, and 
Accounting (MPC&A), where we put greater security around 
nuclear fissile materials. But the question is, how much is 
enough? How much do we keep upgrading, for example, Russian 
facilities when they are spending a tremendous amount of money 
to upgrade their own military and it is becoming much more 
effective over time?
    And what I really want to get to is, do you have an 
objective standard of metrics that can help evaluate where 
different facilities are, partly as a way to know where to put 
the money, but partly as a way to know whether we are making 
progress or not?
    Secretary D'Agostino. Mr. Thornberry, thanks very much for 
the question.
    The answer to that is, yes, we do have an objective set of 
metrics. The nonproliferation program is driven, in fact, by 
metrics.
    With respect to MPC&A or even our Global Threat Reduction 
Initiative, we have a very clearly laid out scope of work that 
goes out into the future. Much of this work, as you know, takes 
some time to do. I mean, you have to start with usually 
country-to-country negotiations, and in each country it is 
unique and different.
    But in the end, we know how many facilities we have said we 
were going to work on in Russia. We have laid out that scope. 
We know how many buildings we said we want to secure in Russia. 
We know how many ports and land transfer crossings we have in 
Russia and around the world that we plan on doing. And we are 
literally working our way through that menu. And so, at any 
given point in time, we know how well we are doing, are we 
getting a B-plus or an A-minus or a C or what have you.
    Mr. Thornberry. And can you say that this facility in 
Russia and this other facility in wherever, Bulgaria, meet 
category III security standards, for example? I mean, is there 
a standard set by which you can measure across the different 
countries where security is relative to perfect security, which 
doesn't exist?
    Secretary D'Agostino. Yes, sir. We use the International 
Atomic Energy Agency (IAEA) Circular 225, Rev. 4, which is an 
international security guidelines that go off and help guide 
our program. We make sure that those facilities meet that bare 
minimum set of security standards. And we work our way through 
that list.
    So it is very much metric-based. At any given point in 
time, for example, we have 73 out of 123 sites that we said we 
are going to finish off in Russia are actually done; 73 are 
completed----
    Mr. Thornberry. And you have walked away from them?
    Secretary D'Agostino. We have sustainability agreements. 
This is the key point, though, and I think you are absolutely 
right, is making sure we have a transition plan with Rosatom, 
for example, which is one of our major partners in Russia. We 
have a transition plan in place to work that off. Right now 
they pick up 40 percent of the load on maintainability, and the 
plan is to get them off of the U.S. approach out into the next 
few years. The Ministry of Defense, which we work closely with 
the Defense Department, has already agreed that they are taking 
care of 100 percent of the security upgrades that we have 
jointly worked on.
    So I am very much in the mind of making sure that this is 
not the gift that keeps on giving, if you will. This is 
something where we expect a partnership relationship. And, 
frankly, I am quite pleased with the partnership relationship.
    I will give you one more example, the Federal Customs 
Service in Russia, for example. Right now, with them we are 
working on putting security upgrades at 370 land border 
crossings, with the agreement right off the bat that they do 50 
percent of the work, we do 50 percent of the work. And on the 
50 percent of the work that we do, they are picking up the 
maintenance costs on those facilities bit by bit, so that over 
the next three years they will have 100 percent of the 
maintainability on that covered.
    Now, of course, we are going to watch them to make sure 
they follow through on that--that is my own parochial 
interest--but I think it is happening.
    The Chairman. Thank the gentleman.
    Dr. Snyder.
    Dr. Snyder. Mr. Chairman, I am sorry I was late because of 
the Veterans Committee. If Mr. Thornberry would like another 
five minutes, I will yield my time to him. He is one of the 
experts and zealous advocates. If he only has five minutes of 
information, then he is done--I will let you have my time.
    Okay. Well, I am just going to pass.
    Mr. Thornberry. Well, all right.
    Dr. Snyder. There he goes.
    Mack has been a leader in this program. There were 
political threats to this program 10, 12, 13 years ago, and 
Mack lead action both in this committee and on the floor of the 
House because of the importance of these programs. And I want 
to recognize him.
    The Chairman. The gentleman is recognized for another five 
minutes.
    Mr. Thornberry. I appreciate the gentleman from Arkansas. 
He and I have traveled together with some of your folks and 
seen some of this, particularly in the early days, which, 
again, seems to me to be eminently defensible. I am worried, 
though, again, that, as we move ahead, that it continues to be 
eminently defensible.
    And let me just pursue a little bit--you were talking about 
Russia, and you talk about Russia a lot in your statement, and 
the partnership we have with Russia. You talk in your statement 
that Russia is bringing back some civilian fuel that it has 
produced from neighboring countries. Other than that example, 
is Russia doing anything for anybody else other than itself?
    Secretary D'Agostino. Well, we work with Russia on the 
Global Initiative to Combat Nuclear Terrorism, which talks 
about the training and export control and making sure--since we 
obviously have the majority of the material and the warheads, 
we have a certain obligation, we feel a significant obligation 
in that manner, to essentially get the whole world up to a 
certain level of standards with respect to nuclear 
counterterrorism.
    Essentially, we work obviously very closely with 
repatriating material, as you have described. Russia is very 
keen and has been very helpful with us, kind of with some other 
states that I would rather talk about in closed session. I 
would be happy to do that in closed session because of the 
sensitivity of the discussion.
    But also they have--because of our partnership with Russia, 
other nations have watched this, and we have agreement with our 
second line of defense activities where this isn't just a 
matter of the United States going over to some foreign port and 
saying, ``We will take care of everything; we are going to 
install this equipment.'' We typically provide the equipment 
and the know-how on the operations, but those other countries 
pick up the rest of the work, which is significant. It is not 
only the installation, but the operations and the maintenance 
of that stuff.
    So we are--I am very confident overall with our 
partnerships.
    Mr. Thornberry. Well, I appreciate it.
    And I appreciate, again, Dr. Snyder yielding.
    I would just say, to keep bipartisan support, it will be 
very important for the administration to make sure we are not 
just funding Russian military modernization and that they do 
not only what they say they are with their own materials and 
facilities, but they are genuinely helpful, whether it is 
public or not, are genuinely helpful in getting better control 
of materials in other places.
    Secretary D'Agostino. Thank you.
    Mr. Thornberry. So, with that feedback, I appreciate the 
gentlemen. Yield back to the gentleman from Arkansas.
    The Chairman. Mr. Heinrich, please.
    Mr. Heinrich. Thank you, Mr. Chair.
    Gentlemen, what do you see as the role of the Congress in 
motivating our allies and partners, countries like Germany, to 
pursue a more effective sanctions regime with Iran?
    Dr. Nacht. This is a tough nut. And it has been an issue 
that has been addressed at least going back to the early 
Clinton years, so we are talking about at least a 15-year-old 
problem here.
    The fact of the matter is that there are many lucrative 
commercial arrangements between private entities in a number of 
ally countries with Iran whose behavior has not been altered by 
any government persuasion by their host government, by their 
own government.
    What the U.S. can do in that regard, you know, we have 
tried various forms of consultation and negotiation and 
dissuasion, but so far I would say we have, you know, mixed 
results, very mixed results.
    I don't know if some more draconian legislation coming out 
of the Congress would actually be helpful, because there are so 
many dimensions to our relationships with the European 
partners, with the Chinese, that, you know, we can go--it is a 
very important matter, but if we go overboard in this area, we 
may pay a price in another area.
    So I think this is an area under review. We are struggling 
with it, and we are looking for--it is a very tailored 
approach. You can't have an overall sanctions policy, I think, 
because the situations are so different. I mean, to alter 
Chinese behavior about acquisition of oil resources from Iran 
is one whole problem. Dealing with heavy machinery from Siemens 
in Germany to Iran is a different problem. Dealing with the 
Russians on their nuclear technology is still a third problem. 
So we have not derived an umbrella approach to this problem, 
but we are open to ideas. It is critically important.
    Obviously, as long as Iran believes and knows that they are 
not really being hurt very much economically--and their economy 
is not in good shape, as we all know--then it gives them less 
of an incentive to alter their behavior or to sit down and talk 
with us in a meaningful way about their nuclear program.
    Mr. Heinrich. To shift gears a little bit, we saw with the 
outbreak of H1N1 in Mexico that we have places right in our own 
backyard where there is no effective surveillance and reporting 
detection when it comes to both animal and then animal-to-human 
pathogens.
    Where do you see the most acute needs for more effective 
detection and reporting as sort of a first line to prevent both 
bioterror outbreaks and also to manage natural animal-to-human 
pathogens that can have huge public health ramifications as 
well?
    Dr. Nacht. That is a very important subject and could be 
very, very important this fall. It is a little outside of my 
particular lane. There is an Assistant Secretary of Defense for 
Homeland Security, Paul Stockton, who works these issues in 
close consultation with the Department of Homeland Security and 
with Health and Human Services (HHS). And that is really----
    Mr. Heinrich. I guess, what do you see as the relationship 
between early detection and reporting and how that can maybe 
help both with natural outbreaks but also having a surveillance 
system in place that potentially can be helpful in bioterror 
attacks as well?
    Dr. Nacht. I mean, obviously, the earlier we can detect the 
outbreak and the better surveillance systems we have in place, 
the more likely we will be prepared to deal with these matters.
    I think that we are looking very carefully at division of 
labor on exactly what kind of systems and what should we 
request from the Congress, what should be deployed, who is in 
the information loop. Because, as you know, I mean, take the 
catastrophe of 9/11, how many different governmental and other 
players are involved? If this became a major outbreak in the 
fall, I mean, it would be a national emergency.
    So it is a large subject. It is a subject that is under 
interagency review currently.
    Mr. Heinrich. Okay.
    I yield back, Mr. Chair.
    The Chairman. Thank the gentleman.
    Before I call on Mr. Turner, Dr. Nacht, let me follow 
through on the discussion you had with Mr. Thornberry a few 
moments ago.
    He asked about the Department of Energy cost-saving with 
Russia on nonproliferation activities, and we received several 
examples of such cost-sharing. But are you able to give us 
examples of such cost-sharing for the Department of Defense 
Cooperative Threat Reduction programs?
    Dr. Nacht. Yes, Mr. Chairman. I can cite a few examples.
    In Azerbaijan, the government there is paying the cost of 
the Cooperative Threat Reduction bio facility that has been 
established there.
    Of course, all of our Cooperative Threat Reduction partners 
provide land for facilities. They provide in-kind services, 
such as security forces to protect the facilities. Russia is 
actually paying a portion of the cost for the dismantlement of 
their ballistic missile submarines, which is a CTR program.
    And our friends in Canada and Britain have contributed 
financially to the nerve agent elimination plant in Russia. So 
they are helping to pay for the elimination of a plant in 
Russia that we are helping with the Russians to eliminate, but 
it is British and Canadian funding that is supporting that.
    So there is a mix of different cost-sharing arrangements 
across the many different programs under CTR in the defense 
area.
    The Chairman. Thank the gentleman.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    And I appreciate both of you gentlemen being here. I have a 
great deal of respect for Mr. D'Agostino. And, Mr. Nacht, you 
have an incredible record of service to your country and 
substantively on these issues. And I have a topic that perhaps 
the two of you might be able to help me with.
    I am very concerned about North Korea's nuclear weapons 
programs. I certainly respect Mr. Bartlett's issue that he had 
raised of alternative ways that they might attack us, but at 
the same time we have the evidence of their full pursuit of a 
nuclear weapons program and a very aggressive missile program 
that appears to be, I believe and I think others and perhaps 
you believe, is a direct threat to the national security of our 
country.
    In the budget that was put forth by the President, he 
requested funding for the disablement and dismantlement of 
North Korea's nuclear weapons program. Now, during our 
committee's markup, I noted that the request for the 
disablement and dismantlement of North Korea's nuclear weapons 
program totaled $80 million. That was the President's budget 
request, $80 million.
    At the same time, the President requested a cut of $120 
million in missile defense funding that would have completed 
part of the missile field at Fort Greely, Alaska. So we are 
setting aside $80 million for the disablement and dismantlement 
of North Korea's nuclear weapon program, and we are eliminating 
$120 million to finish a missile defense field that was two-
thirds of the way complete in Fort Greely, Alaska.
    I offered an amendment that was defeated to offset that, to 
take the $80 million for North Korea and offset it on the $120 
million that we were losing to actually defend ourselves.
    Now, while I support nonproliferation programs and I 
certainly support the dismantlement and the disablement of 
North Korea's nuclear program, I am highly skeptical that Kim 
Jong-il will return to the negotiation table and allow either 
the United States or the International Atomic Energy Agency to 
disable and dismantle North Korea's nuclear program.
    It is my understanding that Secretary of State Clinton 
expressed similar pessimism in April, when she told a Senate 
committee that North Korea's return to the six-party talks was 
``implausible, if not impossible.''
    So I believe that those funds could be better spent. I fear 
that we are going to get to the end of the year and that $80 
million is still going to be sitting there.
    You only have to look at North Korea's recent actions. The 
Six-Party talks have come to a complete halt. North Korea 
conducted another nuclear test. North Korea ejected U.S. 
International inspectors. North Korea reversed most of the 
initial disablement work that was under way. North Korea has 
repeatedly tested cruise and ballistic missiles, to include an 
intercontinental ballistic missile which threatens our 
homeland.
    It appears that many senior officials within the Obama 
administration are coming to the realization that the Six-Party 
and diplomatic engagement with Kim Jong-il are ineffective. 
According to the Los Angeles (LA) Times, they have all but lost 
hope that North Korea will cooperate, and some are arguing that 
it is time for a new approach. Others agree with my assessment.
    And so, gentlemen, you have a great deal of expertise in 
this, and I was wondering what your thoughts were, if you 
thought that this year, that the $80 million designated in 
NNSA's budget to verify, disable, and dismantle North Korea's 
nuclear program, has any likelihood of being used.
    Secretary D'Agostino. Thank you, sir, for the question.
    The direct answer to your question, whether it has any 
likelihood of being useful, I think is dealt with--and I will 
also offer some comments on North Korea, if I could.
    And I think, yes, there is an element of the work that we 
were planning on doing--North Korea kind of being the lead 
horse in the race, if you will--for working on equipment, 
tools, and technologies that we think are important for the 
United States to have at the ready to deploy, kind of, 
anywhere, frankly, to work on disabling and dismantling nuclear 
weapons programs or nuclear material programs around the world.
    As Dr. Nacht stated earlier, and I completely agree, that 
we have looked at--the best place to solve security problems is 
where the material is or as close as possible to the source. 
The further away you get from the problem makes it a much 
harder. The security problem becomes much more difficult; it is 
harder to detect the material.
    And so, we feel--and particularly as the budget was 
developed in February, we were, of course, in the middle of 
engaging directly. But a significant portion of that $80 
million was not North Korea-specific but was nuclear security-
specific. It is the equipment, the tools, the technology for us 
to be able to determine how far a nation-state has gone; buying 
the containers, if you will, some of the long-lead material 
that we would ultimately use to repatriate, whether it is North 
Korean material or whether it is material from another country, 
and bring it back to a secure location.
    So there is a tremendous amount of what I would call dual 
country capability--in fact, more than dual. These are the 
things that we would have done around the world. But that is my 
sense of the situation. I will defer my thoughts on missile 
defense.
    Dr. Nacht. Yes. Let me first say a word about the missile 
defense budget situation. Obviously, it is controversial in 
some elements of the Congress.
    Secretary Gates went through a very thorough review and 
analysis of missile defense needs, including detailed studies 
done by the Missile Defense Agency that went right through 
review with the combatant commanders and the joint staff and 
the chairman and the vice chairman. And the leadership agreed 
unanimously that 30 ground base interceptors, 26 based in Fort 
Greely and four in Vandenberg Air Force Base, was sufficient 
for the next period to deal with projected North Korean threats 
based upon our best intelligence of the evolving North Korean 
threat. And it is actually not just against the North Korean 
threat, but against some other potential threats too.
    So, at the moment, the Defense Department is not seeking 
additional funds beyond what we have requested there.
    On the money for the North Koreans, I think Administrator 
D'Agostino has answered fully. I would just say, of course 
North Korea is going through some sort of succession process 
currently. We don't know if it is going to take three months or 
three years. By all accounts, the leader is very ill. The son 
who he has anointed is of uncertain stature, 26 years old. And 
it may well be that a number of activities of the North in 
escalating, kind of, aggressive behavior in recent months, is 
as much for domestic consumption as it is for international 
activities.
    They are an opaque society, as you know. The quality of our 
information about them is not zero, but it is limited. And we 
are actually developing scenarios--we have developed scenarios 
for future North Korean situations in which these funds could 
be used more effectively should those scenarios materialize.
    The Chairman. Thank the gentleman.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentlemen, I want to thank you for your testimony here 
today and for the work that you do to keep our nation safe.
    Particularly, Mr. D'Agostino, I want to thank you for your 
time yesterday. I enjoyed our conversation when we met 
yesterday. And I want to thank you again, of course, for your 
testimony today.
    Let me begin with the new loose nuke threat, nuke material 
threat. Obviously, the threat of a loose nuke falling into the 
hands of terrorists is a threat not just to the U.S. but, 
clearly, to every nation.
    What I would like to ask is, how much more does the NNSA 
need to secure--and this is from a program perspective--need to 
secure and reduce all known nuclear weapons, as well as 
unsecured weapons-grade nuclear material, around the world? And 
what are the remaining costs of this effort? And what is also 
being done to expand cooperation with partner nations to 
address this shared risk?
    You know, in the context of your answer, if you can talk 
about the successes that we have had, but most especially what 
is left undone. I am particularly concerned if you can give 
some insight into what you are doing to protect us from the 
insider threat.
    Secretary D'Agostino. Certainly, sir. The insider threat 
piece may be best dealt with in closed session. And if we don't 
have time, I could come up to your office, sir, and talk to you 
about it there, as well.
    Mr. Langevin. That is fine.
    Secretary D'Agostino. There is a lot more work to be done, 
actually, on the materials and weapons side. We have, 
obviously, this Global Threat Reduction Initiative program you 
have heard about and you have analyzed, which is to convert or 
shut down 200 reactors around the world that use highly 
enriched uranium, remove essentially 4,600 kilograms of 
material by 2016, and protect close to 4,000 buildings.
    We are down the track on each one of those lines of work, 
but we are not completed and we are not finished down the 
track. We are only 32 percent of the way there on our reactor 
conversion work. We are looking at accelerating up as much as 
possible what we think are the most vulnerable ones. We are 
about 50 percent of the way there on removing and getting into 
secure sites the highly enriched uranium and plutonium that 
exists around the world to get to that 4,600 total. And we are 
only about 15 percent of the way down on securing the number of 
buildings that we have around the world.
    Now, let me be fair here and clear. Not all of these sites 
have fissile material, particularly in the buildings area. Most 
of the buildings have radiologic material, sources and things 
like that that could be used for a radioactive dirty device--
still not good, but not as bad of a problem, obviously, with 
fissile material.
    In our Material Protection, Control, and Accountability 
Program, we have slightly better numbers with respect to 
completion of the work that we have to do. About 60 percent of 
our sites that we think are in the work scope are done; 87 
percent of the buildings. And only about 40 percent of the 
Megaports work that we have to detect material is done.
    So it is pretty significant. We think it is going to take a 
concerted effort--we know it will take a concerted effort, 
obviously, to complete all of the work. But what we are working 
on right now is the costing plan and the program plan, to pull 
all of this together.
    I think your other question dealt with partner nations, 
what are other nations doing, kind of, with respect to these 
programs. And it really depends on the particular program. We 
have agreements in place, ready to execute, for example, 
additional work in Mexico, in the Ukraine, in Kazakhstan. Many 
of those states have agreed to pay up front for a significant 
portion of that work. And, obviously, our approach in all of 
these cases for Megaports, for example, is to have the nation-
states operate and maintain those facilities. We check on them, 
but we have them do that.
    Mr. Langevin. How many other countries are actually 
cooperating with us in this effort and actually contributing 
dollars to the effort?
    Secretary D'Agostino. I will have to get you specifics as 
a--I would like to take the specifics as a lookup.
    But if I can offer you some perspective and offer the 
committee some perspective, we operate with over 100 countries 
around the world. In most cases, to do the significant work 
that we have to do, we sign memorandums of agreement with those 
nations where we define the type of a cost-share agreement.
    Overall, we look along the process--the general principle 
is we come up and kick-start, get the work started, and provide 
the equipment and technology and know-how. We have them pick up 
the work from there and carry it forward. And then we check and 
offer assistance.
    So I will get you the details off the record, sir.
    Mr. Langevin. Thank you. I see my time has expired, but I 
would like to talk about the insider threat issue when we get 
into closed session.
    Secretary D'Agostino. Certainly. I would be glad to.
    The Chairman. Who is next? Mr. Franks, please.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you, gentlemen, for being here.
    You know, I guess I first want to commend the points of Dr. 
Bartlett and Mr. Marshall even though they are no longer here. 
I do think that their points are salient. And I am looking 
forward to hearing more of your response in a different venue, 
as you say.
    Let me just say that I believe EMP potentially to be the 
most effective asymmetric weapon in the hands of almost anyone 
that could have them. I also agree that the departments that 
you represent are wise in focusing on the source to try to do 
those things to prevent the material from ever becoming 
available to anyone. And I was especially appreciative of Dr. 
Nacht's comments related to Iran being such a priority in that 
regard.
    Let me just say something that is very obvious to both of 
you. I say it primarily for the record, and sometimes restating 
the obvious is important. I believe missile defense, an 
effective missile defense, especially in the area related to 
Iran, even the European site, to be something that is capable 
of devaluing the entire nuclear program in Iran's plan. And I 
believe that--you know, it is going to be hard to deter them in 
any circumstance, but if we have whatever efforts we are making 
that are coupled with at least the notion that any leverage 
they might gain is ameliorated by our missile defense 
capabilities, I think that is vitally important. And I hope it 
is something that we don't overlook. It is not just about 
stopping a missile; it is about stopping the proliferation. 
Missile defense is probably one of our most important 
components in preventing proliferation.
    With that said, let me shift gears here and ask you, Mr. 
D'Agostino, in your testimony, page 2, you say that North 
Korea's continued defiance of the international community 
through its WMD-related missile and nuclear activities makes 
clear the urgency of today's global nuclear threats.
    So I guess I am hoping you can explain to the committee how 
you surmise that North Korea's defiance--and, incidentally, I 
agree with you--but explain it to us how North Korea's defiance 
drives a global nuclear threat.
    Secretary D'Agostino. I look at this as an example, real-
time, that is dynamic. And I think this is the piece that we 
just have a very clear example of--when the President's budget 
for 2010 was coming to its final days of closure and we were 
doing the negotiation in writing and making sure the numbers 
were right and the words were right and, more importantly, the 
strategy is right, we were in a different situation, and it 
changes quite quickly.
    So my sense is this is a dynamic problem. It is a problem 
that is a lot faster than the budget process that we have on 
the executive branch. Obviously, it outpaces everything. So, to 
me, that drives a sense of urgency to get on top of the problem 
as quickly as possible, to put the resources on the problems as 
quickly as possible. It is very significant, but it is 
something that we can't shy away from. And, obviously, we are 
not. With the committee's support, excellent support, we have 
been in a position to do that.
    The one thing I might add is that, with the committee's 
support as well, it has made it possible for us to receive 
resources from other countries. Other countries see it the same 
way as we do. Canada and United Kingdom, South Korea, Japan, 
other nations have actually contributed their resources toward 
our problems in the Global Threat Reduction Initiative. I think 
that is an excellent testimony to the programs that you 
support, as well as to this urgency piece that comes forth.
    Mr. Franks. Thank you.
    Given the parameters, the sensitivities that you have to 
deal with here, I do think that, as Mr. Langevin mentioned, 
again, the greatest challenge that we face, at least short 
term, is some type of nuke device in the hands of terrorists. 
Because it is not so much that they are so much better at 
delivering it, but I am convinced that their mindset of 
actually using it is really unquestionable. And I think that is 
what makes it so dangerous.
    It is likely that if they do gain some type of nuclear 
yield weapon, it probably won't be a large weapon. It will 
probably be a smaller weapon which may not be as effective for 
EMP, and they may just want to try to bring it into the United 
States.
    So my question to you, Dr. D'Agostino, and certainly, Dr. 
Nacht, if you are inclined to respond as well, is: Help the 
committee understand, within the parameters that you can in 
this venue, what mechanisms do we have, either at the ports--
and you mentioned in your Second Line of Defense a lot about 
the ports--within the ports and the border crossings, what do 
we have here, whose responsibility is it to be making sure that 
we screen for nuclear devices coming into this country.
    Secretary D'Agostino. Department of Homeland Security has 
primary responsibility. We provide technical support and backup 
with our radiation detectors, as well as we have--we also take 
care, with the Department of Homeland Security, we have our 
Megaports program to make sure that we have detectors up and 
operating in 100 of the largest seaports around the world, 
which send the materials, send goods here in the United States.
    So that is a short answer. I am not sure how much time I 
can keep talking. But from that standpoint, our job is to make 
sure to finish the work on Megaports initiative, which is 
significant, as well as to support the Department of Homeland 
Security in its Secure Freight Initiative, which has a 
responsibility for looking at all the material that comes in 
here domestically.
    Dr. Nacht. And the Department of Defense's role is to work 
with NORTHCOM also in consultation with DHS so that, as 
horrible as it sounds, if a weapon is detonated, that a second 
weapon is not detonated, so that one weapon would be horrific, 
but more than one would be much worse. So not to have some sort 
of ad hoc approach to dealing with the perpetrators but having 
as comprehensive a plan as possible to stop them from doing any 
more damage than they have done.
    Mr. Franks. Thank you gentlemen. Thank you, Mr. Chairman.
    The Chairman. Let me say that we are supposed to have votes 
shortly which will take about 45 minutes. Let's get as many 
questioners as we possibly can and observe the 5-minute rule. 
After the votes on the floor, we will adjourn here to 2327 for 
the classified hearings, and those that have not had the 
opportunity to ask questions in the order they would have asked 
here will be recognized at that moment in 2337 to continue on 
the classified basis. With that understanding, Mr. Kissell, we 
will squeeze in as many as we can before the votes come.
    Mr. Kissell. Thank you, Mr. Chairman.
    A couple of quick questions, thank you, gentlemen, for 
coming today. We had a hearing--I think it might have been 
January the 22nd, earlier this year, when former Senator Graham 
and his Commission on Weapons of Mass Destruction testified 
before us. And one of the conclusions they drew and presented 
to us was that they predicted there would be a weapons of mass 
destruction attack upon the United States I think in the next 
three, four, years. And the opportunity to stop it was there, 
but actually, we were losing ground in terms of being able to 
stop it. In other words, we weren't making up that deficit 
towards being able to keep this from happening.
    In your opinions, what is that opportunity now, is that a 
growing situation or a lessening situation that we would have 
that attack?
    Secretary D'Agostino. I will start and turn it over to my 
colleague. I typically am not a big fan of putting time frames, 
because I don't want to promote anybody from trying to beat the 
odds or not. What I think my focus frankly is--I think we are 
getting better, but only because what we are seeing is an 
increased sense of urgency. I think the increased sense of 
urgency is properly placed by the administration.
    I think it is well understood in my organization, which is 
more of a technical organization than necessarily establishing 
the policy, if you will, but the key is that we recognize, we 
understand the devastating impacts of material getting out. I 
am speaking mostly on the nuclear side, which is my expertise, 
and what we are trying to focus on is, do more. And I am 
looking internally at the program to see, am I properly 
prioritized?
    But I am also communicating externally with my colleagues 
at the National Security Council to make sure they recognize 
that. I think what we have got from the administration which I 
represent is this renewed sense of urgency, this idea of 
securing material within a certain period of time; the idea of 
working internationally and establishing the right type of 
international frameworks; the idea of making sure that the 
International Atomic Energy Agency (IAEA) is properly supported 
and we have the next generation of scientists and technicians 
ready to work. Because as energy increases, as the nuclear 
power becomes more ubiquitous, we want to make sure we design 
in the safeguards into those systems so that we don't cause 
ourselves problems out in the out years 5 or 10 years from now. 
So, from a technology standpoint, I think the urgency is there, 
and the light is on the problem; it is up to us to go out and 
go execute, frankly.
    Dr. Nacht. Congressman, I note that the language of the 
Commission was that a weapon of mass destruction will be used 
in a terrorist attack somewhere in the world by the end of 
2013. So that is what, three and a half years now. I don't 
know, I am a little--point predictions are sometimes a little 
hard to justify. Clearly, we have a major problem here. I think 
the combination of the activities Administrator D'Agostino and 
myself talk about and the President's commitment suggests that 
we are looking at this problem globally, nuclear, as well as 
biological. We have renewed resources in the intelligence 
community to track, as best we can, terrorist activities. And I 
would say we are trying to get that curve to turn around, 
plateau and then drop off, but we are in a full court press now 
in this administration on this problem.
    Mr. Kissell. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Coffman, let's see if we can squeeze two 
questioners in between now and the time we have to go vote. 
There will be five votes, and it will take approximately 45 
minutes. We will reconvene and the questioners will be in the 
same order as if you were here in 2337. So let's get there as 
soon as the five votes are over.
    Mr. Coffman. Thank you, Mr. Chairman.
    It was mentioned, concern about Iran and their development 
of nuclear weapons, and it was also mentioned about sanctions, 
effectiveness of sanctions against Iran by the United States in 
the international community. I believe there was legislation in 
the House and Senate that has been introduced that would in 
fact impose further sanctions on Iran. I wonder if one of you 
could speak or both of you could speak to the effectiveness of 
that legislation or sanctions that you would envision 
specifically that would be effective in terms of getting Iran 
to back off of its development of nuclear weapons.
    Dr. Nacht. There is little I can say about that at this 
time. We could provide you with more detailed information and 
perhaps in another setting with additional colleagues who work 
this problem more specifically.
    Mr. Coffman. Well, thank you very much.
    I would really appreciate any information you could provide 
on that issue. If, in fact, sanctions would help in deterring 
Iran from attaining nuclear weapons, then we need to do 
everything we can to promote those sanctions at the earliest 
possible time in order, again, to deter them from moving 
forward. Now, I wonder if you at all would speak to--if you 
were to say what is the number one threat facing the United 
States, is it bioterrorism, is it a dirty bomb or is it an 
ICBM, a nuclear weapon launched from a rogue nation?
    Dr. Nacht. Again, the President answered that question by 
saying it would be a terrorist attack with nuclear weapons. I 
think the core difference between the terrorist or even the 
suicide bomber, obviously, and the nation state is that they 
are very difficult, if not impossible, to deter. You can't 
dissuade them. You can try to prevent them, but they don't have 
anything to lose because they know they are on an exalted 
mission, and they are going to a better reward after the 
detonation. So whether it is biological attack or a nuclear 
attack by terrorists, I think it is now an absolutely top 
priority for us to try to deal with.
    We have varying degrees of judgment about our ability to 
deter other states, but I think many of us believe that even 
Iran and North Korea are deterrable from using these weapons 
because they have a tremendous amount to lose once they use 
them. In fact, their entire societies are at risk, whereas the 
terrorist does not have that incentive.
    Mr. Coffman. Mr. Chairman, I yield back the balance of my 
time.
    The Chairman. Ms. Tsongas, please.
    Ms. Tsongas. Thank you, gentlemen, for your testimony.
    I would like to ask a question about Pakistan and reference 
the same report that Congressman Kissell referred to on the 
Commission on the Prevention of Weapons of Mass Destruction 
Proliferation. That report--their report describes Pakistan as 
the focus point of WMD and terrorism. I just wondered if you 
could reflect on that your own thoughts and how we as a 
country, particularly given the destabilized situation in 
Pakistan today, how we can exercise influence over Pakistan to 
secure their weapons and deal with the threat among--in their 
midst.
    Secretary D'Agostino. I would be glad to start off on the 
answer. We absolutely agree; working with Pakistan, probably 
working with Pakistan makes a lot of sense. In fact, Pakistan 
has--we do work with Pakistan, with the Department of Homeland 
Security on Secure Freight Initiative in putting radiation 
detectors in their ports. One port is done, Karachi is the 
second port. We are negotiating that type of work. We have 
export controls experts who are in the process of working with 
Pakistan on training them on what to look for with respect to 
what comes into the country and goes out of the country.
    Pakistan has legislation in place as a nation to establish 
this type of capability and maintain it. They have developed 
their own list of materials and advanced their list of 
materials on things that they are looking for. We also, from 
the standpoint of their programs, we know that Pakistan, 
obviously, some of the details I would rather go into in a 
closed session. But what I can say about the military is they 
are a very highly professional group. They are well trained. 
They understand the problem and the work they have cut out 
before them and in fact the work the rest of the world has cut 
out for them, and they take these issues very seriously.
    We do work closely in many areas, as I said, with their 
port security, export control work, and we have actually seen 
things taking place in country which signifies they have taken 
that seriously. Other details I will address later in closed 
session.
    Dr. Nacht. I would just add that collaboration of the 
Pakistani government with the United States is a sensitive 
matter in Pakistan. So what we do with them is best discussed 
elsewhere.
    Ms. Tsongas. I yield back, given the time constraints.
    Thank you.
    The Chairman. We will adjourn to 2337. Mr. Spratt will be 
the next questioner. We will see you in half an hour, 45 
minutes.
    [Whereupon, at 12:08 p.m., the committee was adjourned to 
reconvene in closed session.]

=======================================================================

                            A P P E N D I X

                             July 15, 2009

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 15, 2009

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 15, 2009

=======================================================================
      
                    QUESTION SUBMITTED BY MR. MASSA

    Mr. Massa. Based on the success of the dismantling of the Libyan 
nuclear weapons program of the 1990s, are there any lessons learned 
from that effort that can be applied in respect to Iran and North 
Korea?
    Dr. Nacht. The important lesson learned was that the USG was able 
to move quickly in response to the Libyan decision to dismantle their 
WMD program. The proposed ``not-withstanding authority'' legislation, 
Section 1305 of the House 2010 National Defense Authorization Bill, 
will permit additional flexibility should Iran or North Korea agree to 
dismantle their WMD programs.

                                  <all>

</pre></body></html>
